                          Management Information Report

                     Monitoring of Investment Committee Activity

                         Report No. 02-03, January 28, 2002



Introduction

The Railroad Retirement Act (RRA) authorizes the investment of Railroad Retirement
Board (RRB) trust funds, as directed by the RRB Board Members, in securities issued
by or guaranteed by the Federal government. The Board Members delegated the
authority for investing the trust funds to an Investment Committee. The Investment
Committee also advises the Board Members on policy and decisions related to the
investments. The market value of the trust funds as of the end of fiscal year 2001 was
over $21 billion.

The Office of Inspector General (OIG) has closely monitored the activities of the
Investment Committee and issued its initial evaluation of investment policies and
procedures in September 1996. The OIG identified several serious control weaknesses
in this evaluation. The OIG has also issued numerous memorandums and letters related
to the activities of the Investment Committee. The Investment Committee has made
some changes in its operating practices but several weaknesses still exist. The
remaining weaknesses include the lack of a consistent long-term investment strategy,
poor cash management practices and a lack of documentation to justify investment
decisions.

On December 21, 2001, President Bush signed into law the Railroad Retirement and
Survivors’ Improvement Act of 2001 (RRSIA). The legislation provides for significant
changes in the structure and financing of future benefits as provided under the RRA. In
addition to the benefit and tax provisions, the RRSIA establishes a trust, under the
direction of an independent board of trustees, that is responsible for the investments
used to support RRA benefit programs.

The RRB will be required to transfer the balance of its investments to the new trust in
accordance with the provisions of the RRSIA. The OIG will monitor the actions of the
Investment Committee and will ensure the RRB adheres to the requirements of the
RRSIA and completes the transfer within a reasonable period of time.

Monitoring Activities

In September 1996, the OIG issued its initial evaluation of the investment policies and
procedures of the agency’s Investment Committee. The Committee’s practices affect
the earnings on the railroad retirement trust funds.

The OIG identified three serious weaknesses:

•	 conflict of interest in the responsibilities of the Chief Actuary who serves as the
   Committee Chairman,
•   insufficient long-term strategy, and

•	 lack of a formal procedure for justifying and documenting investment
   decisions.

The OIG has expressed concern that Committee members lacked any formal
experience and expertise to manage trust fund investments. In addition, the Committee
could not adequately respond to OIG requests for fundamental information on
investment strategy and supporting documentation for trades.

Despite the OIG findings, the agency’s Board Members at that time remained firm in
their belief that no changes were required. Two RRB selected expert consultants, Dr.
Kenneth French and Bear Stearns, as well as KPMG Peat Marwick LLP in its audit of
the RRB’s financial statements, also advised the agency to implement changes in its
investment practices.

Starting in May 1995, the Investment Committee purchased a significant number of
November 15, 2009 zero coupon bonds. These bonds had a face value in excess of $6
billion as of July 1998. The OIG requested an explanation from the Committee as to
why it concentrated its purchases in this security. The only reason offered by the
Committee members was they viewed the bonds as being cheaply priced relative to
other securities. It was unclear if the Committee understood why callable bonds would
be priced differently than bonds without a callable feature. In 1998, the Committee
began selling these bonds because they no longer considered them to be attractive
investments. The OIG could identify no meaningful rationale or explanation for such
active trading. Again, the OIG requested justification for the Committee’s actions; no
meaningful information was provided.

On September 23, 1998, the agency’s Chief Financial Officer issued a letter to the
Office of Management and Budget requesting guidance on policy and accounting
considerations regarding the potential purchases and sale of new types of securities the
RRB may consider for investment. The agency sought to invest in securities issued by
Federal government agencies.

The OIG wrote to the Department of the Treasury regarding the RRB’s investment
authority and the operations of the Investment Committee. The OIG summarized the
serious weaknesses identified during the earlier evaluation and the Committee’s
practices that may jeopardize the long-term integrity of the trust funds. In addition, the
OIG contacted the Office of Management and Budget expressing opposition to any
possible expansion of the types of securities available for RRB trust fund investment.
The OIG recommended that the management of the RRB’s trust funds should be
transferred to the Department of the Treasury.

The OIG, in the initial evaluation of the Investment Committee, expressed concerns that
the Chief Actuary calculated actuarial projections to determine cash flow needs and, as



                                             2
the Investment Committee’s Chairman, generated security trading data and initiated
trades. This office recommended that the role of the Bureau of the Actuary be limited to
providing updates on required cash flows of the trust funds based on projected
surpluses or deficits to resolve this obvious conflict of interest. The OIG also
questioned the prior investment experience of the Chief Actuary as well as the other
members of the Investment Committee.

In February 1999, the OIG provided the RRB’s Chair with a summary of OIG findings
concerning the agency’s Investment Committee. The Chair subsequently requested
that the Board establish a working group comprised of representatives of the three
Board offices and the voting and non-voting members of the Investment Committee in
response to recommendations made by outside consultants. As a result, the Board
Members issued a decision to change the status of the Chief Actuary. He is now a non-
voting member and the RRB General Counsel assumed the chairmanship of the
Committee.

On March 29, 1999, the OIG again issued a memorandum to the agency’s Chair
expressing concerns about the operations of the Investment Committee. A fundamental
difference in opinion continues to exist between the Investment Committee and the OIG.
The Committee favors an active trading strategy, while the OIG believes a buy and hold
strategy is a more prudent and conservative method for investing the trust funds.

The OIG subsequently provided updated information on the RRB’s investment practices
to officials of the Office of Management and Budget, the Department of the Treasury,
and members of select congressional committees. The OIG letter included supporting
documentation that clearly illustrated the reckless trading program employed by the
Committee. The letter cited several transactions that resulted in realized losses of over
$64 million for the trust funds. At the end of fiscal year 1999, the OIG, in its Semiannual
Report to Congress, again expressed concern regarding the frequency of trades over
the preceding twelve months.

The OIG continued its monitoring of Investment Committee activities throughout fiscal
years 2000 and 2001. The number of investment transactions declined but
characteristics of the trading pattern continued. The Investment Committee continued
to sell higher yielding bonds rather than using available PAR value funds to finance the
purchase of longer-term bonds. The lack of effective cash management practices was
evident in October 2000 when the OIG questioned why the Investment Committee had
not invested a larger portion of its PAR value funds in a short-term Treasury Bill
purchase. There was no direct response to the question; however, the following week
the Investment Committee committed the balance of its available funds to a similar
Treasury Bill purchase.

The Committee’s willingness to commit large portions of the portfolio to the purchase
and sale of securities to achieve short-term results is the antithesis of the long-range
strategy that should be employed by a pension fund. The long- term nature of the
RRB’s significant retirement liabilities suggest that a more conservative buy and hold



                                             3
strategy would be a more prudent course of action. The Investment Committee has
consistently executed purchase and sale transactions in response to short term
fluctuations in interest rates.

The results of the Committee’s actions have been detrimental to the trust funds for
several reasons. The Committee sacrificed long term favorable yields to report short-
term capital gains that represent no more than window dressing relative to the overall
performance of the funds.

The Railroad Retirement Account has an excess of invested cash due to a lack of
consistent planning. Forecasts of the RRB’s cash position suggest no cash flow
problems for the next twenty-five years, yet the Investment Committee maintains a cash
equivalent balance of approximately $8 billion that represents over 40% of the market
value of the fund and currently yields 4.5%. The Committee has managed to increase
the cash equivalent portion of the portfolio in a declining interest rate environment while
sacrificing the favorable yields that were earned on the long-term bonds.

A review of the past eight fiscal years indicates a continuous pattern of selling the
longest held and highest yielding securities in the portfolio. The sale of these securities
generates capital gains for reporting purposes but does not enhance the long-term
solvency of the trust fund. The Committee has divested assets with yields to maturity
as high as 11.68% to retain an excessive cash position that was subject to monthly
interest rate risk in the PAR value specials. The analysis used by the Investment
Committee compared securities as if the sale and purchase transactions were the only
alternatives available. This analysis consistently avoided the consideration of
purchasing securities from PAR value funds.

At the end of fiscal year 1993, the PAR value account had a balance of $7.9 billion. The
balance has been maintained at or close to this level for the past eight years without
explanation as to why such a large cash balance was needed. Investing just $4 billion
of this account at an additional 1% for the past eight years could have produced an
additional $330 million in value to the Railroad Retirement Account.

The relative size of the “actively managed” portfolio and the performance over time is
indicative of the lack of expertise in this area. The Investment Committee has
continuously churned the bond portfolio causing the overall book yield, the initial yield to
maturity, to decline from 8.32% at the end of fiscal year 1994 to 6.02% at the end of
fiscal year 2001. The yield to maturity within the bond portfolio ranged from 6.74% to
11.68% at the end of fiscal year 1994. At the end of fiscal year 2001, the yield to
maturity ranged from 4.92% to 7.73%.


Recent Legislation

The President signed the RRSIA into law on December 21, 2001. The major benefit
provisions include the improvement in annuity payments to certain widows and
widowers, the elimination of an overall maximum benefit that may be payable and


                                             4
restoring the unreduced annuity benefit for those retiring after age 60 with 30 years of
service. In addition, the vesting requirement for entitlement to tier 2 benefits was
reduced to five years for service after December 31, 1995.

The financing provisions of the RRSIA include the establishment of an independent
trust, under the direction of an independent board of trustees, that is responsible for the
investments used to support RRA benefits. The law provides for specific reductions in
the level of tier 2 taxes being paid by employers and employer representatives during
2001 and 2002. Future tier 2 tax rates will be based upon a pre-determined schedule
that considers the value of fund assets in relation to benefits paid and expenses
incurred. The law provides for the repeal of the employer’s supplemental annuity tax
and elimination of separate fund accounting for supplemental benefits.

Investment Provisions of RRSIA

The RRSIA provides for the establishment of the National Railroad Retirement
Investment Trust (Trust) as an independent entity to manage the investments of the
RRB. The Trust is to be administered by seven trustees, three who represent the
interests of labor, three representing the interests of management and one independent
member. The trust is specifically exempted from income taxes.

The appointment process for the labor and management trustees requires
representation of two-thirds of the active employees covered by the RRA through the
labor organizations and employers respectively. The law specifies that each trustee
must be experienced in financial investments and pension plans. The RRSIA also
defines the powers, duties and responsibilities of the trustees.

The Trust is required to engage a certified public accountant to audit its financial
statements each year. The Trust must also prepare an annual management report,
which is to be submitted to the Congress within 180 days after the end of the Trust’s
fiscal year. Copies of the management report are also to be submitted to the President,
the RRB and the Director of the Office of Management and Budget. The RRB may
bring civil suit to enforce the provisions of the RRSIA.

The Board of Trustees is to retain investment advisers to assist in the formulation of
investment guidelines and can hire investment managers or invest the assets of the
trust in accordance with the guidelines that it has adopted. There is no specific
prohibition against any specific investment or class of investments for funds of the
Railroad Retirement Account. The trustees are required to discharge their duties in the
interests of the RRB and the participants and beneficiaries of programs under the RRA.
The Trustees are also bound by a prudent person standard similar to that imposed upon
private plan administrators subject to the Employee Retirement Income Security Act of
1974.

Once the Trust has been established, the RRB is to direct the Secretary of the Treasury
to transfer those assets, not needed to pay the current expenses of the Railroad



                                             5
Retirement Account, to the Trust. Similarly, the RRB is to direct the transfer of the
Social Security Equivalent Benefit Account, in excess of the amount needed to pay
current benefits and administrative expenses, to the Trust but the Trustees can only
invest these assets in obligations of the Unites States. Additional transfers of funds to
the Trust are to be made if revenues exceed the amount needed to cover expenses of
the RRB.

The RRSIA also provides for the RRB to contract with an independent disbursing agent
to make payments under the RRA. Once this arrangement has been made the RRB will
certify the amount of benefit payments to be made and direct the Trust or the Secretary
of the Treasury to transfer funds from the appropriate accounts to the disbursing agent
for remittance to the annuitants and beneficiaries. Existing disbursement procedures
will be followed in the interim.


Recommendations and Conclusion

The RRSIA clearly states that the responsibility for the investment of RRA assets is to
be transferred to the newly established Trust. The Investment Committee should not
make any further investment decisions that may complicate the transfer of authority to
the Trust. The RRB should limit its investment activity to routine decisions such as
reinvesting coupon interest in PAR value specials. The OIG recommends that the
Board rescind the Investment Committee’s authority (Recommendation No. 1).

The OIG will continue to monitor the investment activities of the RRB to ensure that the
requirements of RRSIA are being followed. The agency should be taking steps to
ensure that the trustees have been duly appointed and have satisfied the requirements
set forth in the law prior to the transfer of funds or investments. Once these
requirements have been fulfilled, the RRB should respond in a timely manner to
facilitate the transfer of investment authority.




                                             6
